No. 20A126
___________________
IN THE

Supreme Court of the United States
____________________

TATE REEVES, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF MISSISSIPPI; PHILIP GUNN, IN HIS
OFFICIAL CAPACITY AS SPEAKER OF THE MISSISSIPPI HOUSE OF REPRESENTATIVES; DELBERT
HOSEMANN, IN HIS OFFICIAL CAPACITY AS LIEUTENANT GOVERNOR OF MISSISSIPPI; MICHAEL
WATSON, IN HIS OFFICIAL CAPACITY AS SECRETARY OF STATE OF MISSISSIPPI; CAREY M.
WRIGHT, IN HER OFFICIAL CAPACITY AS STATE SUPERINTENDENT OF EDUCATION AND
EXECUTIVE SECRETARY OF MS STATE BOARD OF EDUCATION; ROSEMARY AULTMAN, IN HER
OFFICIAL CAPACITY AS MEMBER OF THE MISSISSIPPI STATE BOARD OF EDUCATION, JASON
DEAN, IN HIS OFFICIAL CAPACITY AS CHAIR OF THE MISSISSIPPI STATE BOARD OF EDUCATION;
KAREN ELAM, IN HER OFFICIAL CAPACITY AS MEMBER OF THE MISSISSIPPI STATE BOARD OF
EDUCATION; ANGELA BASS, IN HER OFFICIAL CAPACITY AS MEMBER OF THE MISSISSIPPI STATE
BOARD OF EDUCATION; RONNIE MCGEHEE, IN HIS OFFICIAL CAPACITY AS MEMBER OF THE
MISSISSIPPI STATE BOARD OF EDUCATION; GLEN EAST, IN HIS OFFICIAL CAPACITY AS MEMBER
OF THE MISSISSIPPI STATE BOARD OF EDUCATION
Applicants,
v.
INDIGO WILLIAMS, ON BEHALF OF HER MINOR CHILD J.E.; DOROTHY HAYMER, ON BEHALF
OF HER MINOR CHILD, D.S.; PRECIOUS HUGHES, ON BEHALF OF HER MINOR CHILD A.H.;
SARDE GRAHAM, ON BEHALF OF HER MINOR CHILD, S.T.,
Respondents.
____________________
PROOF OF SERVICE
____________________
I, Jason Zarrow, a member of the bar of this Court, hereby certify that, on
this 25th day of January 2021, all parties required by the Rules of this Court to be
served have been served electronically. One copy of the Opposition to Application to
Recall and Stay the Mandate of the United States Court of Appeals for the Fifth
circuit Pending the Filing and Disposition of a Petition for a Writ of Certiorari in
the above-captioned case will be deposited with the U.S. Mail, for delivery to
applicants’ counsel of record on the attached service list. I further certify that an
electronic copy is being emailed today to counsel of record at the email address
included on the attached service list.
Jason Zarrow
Jason Zarrow

SERVICE LIST (No. 20A126)
Krissy C. Nobile
State of Mississippi
Office of the Attorney General
P.O. Box 220
Jackson, MS 39205-0220
(601) 359-3680
krissy.nobile@ago.ms.gov
Counsel for Applicants

2

